           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



       ADMINISTRATIVE COSTS
          CLAIMED BY THE
        ALABAMA DISABILITY
      DETERMINATION SERVICE

   February 2008   A-08-07-17151




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                             SOCIAL SECURITY
MEMORANDUM

Date:      February 29, 2008                                                              Refer To:

To:        Paul D. Barnes
           Regional Commissioner
            Atlanta

From:      Inspector General

Subject:   Administrative Costs Claimed by the Alabama Disability Determination Service
           (A-08-07-17151)


           OBJECTIVES

           Our objectives were to

           •     evaluate the Alabama Department of Education’s (AL-DE) and Alabama Disability
                 Determination Service’s (AL-DDS) internal controls over the accounting and
                 reporting of administrative costs,

           •     determine whether costs AL-DDS claimed for Fiscal Years (FY) 2005 and
                 2006 were allowable and funds were properly drawn, and

           •     assess limited areas of AL-DDS’ general security controls environment.

           BACKGROUND
           Disability determinations under the Social Security Administration’s (SSA) Disability
           Insurance and Supplemental Security Income programs are performed by disability
           determination services (DDS) in each State or other responsible jurisdiction, according
           to Federal regulations. 1 In carrying out its obligation, each DDS is responsible for
           determining claimants’ disabilities and ensuring adequate evidence is available to
           support its determinations. To make proper disability determinations, each DDS is
           authorized to purchase consultative medical examinations and medical evidence of
           record from the claimants’ physicians or other treating sources. SSA reimburses the
           DDS for 100 percent of allowable expenditures. DDSs report program disbursements
           and unliquidated obligations each quarter on Form SSA-4513, State Agency Report of
           Obligations for SSA Disability Programs.


           1
               20 Code of Federal Regulations §§ 404.1601 et. seq. and 416.1001 et seq.
Page 2 – Paul D. Barnes


AL-DDS, a division of AL-DE, is located in Birmingham, Alabama, and has a branch
office in Mobile, Alabama. AL-DE maintains AL-DDS’ official accounting records and
prepares its Forms SSA-4513. For additional background, scope and methodology,
see Appendix B.

RESULTS OF REVIEW
AL-DE’s and AL-DDS’ internal controls over the accounting and reporting of
administrative costs for FYs 2005 and 2006 were generally effective to ensure costs
claimed were allowable and funds were properly drawn. However, AL-DDS did not
always properly manage its general security controls. As such, AL-DDS’ security
practices and controls did not adequately protect office facilities and claimant data.

For the Birmingham AL-DDS office, we determined

•     perimeter access controls were not appropriately used and

•     recycling and cleaning practices placed claimants’ personally identifiable information
      (PII) at risk.

For the Mobile AL-DDS office, we determined equipment rooms were not locked.
Finally, AL-DDS did not adequately document employees’ annual security awareness
training or establish a Security Plan that complied with SSA’s requirements.

PERIMETER ACCESS CONTROLS NEEDED IMPROVEMENT

Intrusion Detection System Sensors Not Reactivated Timely and Perimeter Door
Not Always Locked

SSA’s policy requires that DDSs adequately safeguard claimant/program information
and facilities used by their personnel. 2 However, AL-DDS’ security practices did not
maintain the integrity of its perimeter controls in the Birmingham office.

AL-DDS installed an intrusion detection system (IDS) to enhance building security and
supplement its 24-hour guard service but kept IDS sensors deactivated on three doors
for approximately 5 hours beyond normal business hours. AL-DDS deactivated IDS
sensors each weekday morning to facilitate deliveries and provide employees access to
a designated smoking area. While AL-DDS used surveillance cameras to monitor all
three doors and kept two of the three doors locked, it did not reactivate IDS sensors
until approximately 10:00 p.m. each weeknight. AL-DDS told us it delayed reactivating
IDS sensors to accommodate its cleaning service. We believe AL-DDS should
reactivate IDS sensors at the end of the business day.



2
    SSA Program Operations Manual System (POMS), section DI 39566.010.A and B.
Page 3 – Paul D. Barnes


Additionally, AL-DDS allowed one of the three doors to remain unlocked until 5:00 p.m.
each weekday to provide employees access to a smoking area. While AL-DDS has
latticework around the smoking area, we do not believe this is an adequate safety
measure. AL-DDS should keep the unsecured door locked to prevent unauthorized
access to its facilities.

Accordingly, AL-DDS did not consistently maintain the integrity of its building access
controls, which increased the building’s vulnerability to intrusion. We recommend SSA
address these perimeter security issues with AL-DDS and instruct it to reactivate IDS
sensors timely and keep the perimeter door locked.

Intrusion Detection System Not Adequately Protected

SSA policy instructs DDS management to ensure ongoing security of data, personnel
                                        3
and property by protecting its systems. However, AL-DDS did not adequately protect
access to its IDS. Although the DDS’ guard station contained the IDS keypad, backup
power supply and camera system, the DDS did not have a lock on the guard station
door. While the guard is generally in the guard station, there are instances when the
guard may be away from his post for a short period. Therefore, we believe an
unattended and unlocked guard station could provide third parties access to the IDS
and security equipment.

Furthermore, we found the IDS code displayed on the guard station wall. When we
brought this to the Security Officer’s attention, he removed the code from the wall. We
believe its open display could have compromised the IDS code. As such, we believe
AL-DDS should change its IDS code. Also, AL-DDS should install a lock on the guard
station door and keep the guard station locked when it is unattended.

Intrusion Detection System Not Tested Semiannually

Contrary to SSA policy, AL-DDS had not tested its IDS semiannually to ensure all
sensors were working properly. 4 We believe AL-DDS risked the IDS’ effectiveness by
not testing it as required. We discussed this finding with AL-DDS management and
learned they were amending their agreement with the monitoring company. The
renegotiated agreement will include semiannual testing of the system. While AL-DDS’
actions adequately address our concern, we recommend it ensure the IDS is tested
semiannually.




3
    POMS, section DI 39566.010.A.
4
    POMS, section DI 39566.010.B.2.h.
Page 4 – Paul D. Barnes


PERSONALLY IDENTIFIABLE INFORMATION AT-RISK

Recycling Bins Not Adequately Secured

SSA policy requires that DDSs dispose of claimant PII so it is unattainable to
                         5
unauthorized personnel. However, on two occasions during our field work, AL-DDS’
Birmingham office left a recycling bin containing PII outside on a loading dock. In fact,
we determined the bin remained outside for multiple days.

AL-DDS management told us it allowed employees to place recycling bins outside
before the shredding contractor’s scheduled pick-up time. As a result, AL-DDS
inadvertently made claimant PII accessible to unauthorized personnel. We discussed
our finding with AL-DDS management, who told us they were addressing this issue and
would no longer place recycling bins containing PII outside before the recycling
contractor’s arrival. The manager also stated they have instructed employees to check
bins after the contractor completed its shredding to ensure no outside bins contain PII.
Although AL-DDS’ actions adequately address our concerns, we recommend they
monitor the recycling process.

Claimant Records Not Adequately Secured

SSA policy states DDSs should secure claimant records and folders to avoid
unauthorized disclosures when sensitive areas are cleaned outside of normal business
hours. 6 However, AL-DDS’ contracted service cleaned the Birmingham office, including
its sensitive areas, during non-business hours; and one such area, the Data Entry unit,
contained over 200 unsecured claimant folders.

In 2002, we identified and reported to SSA and AL-DDS that the DDS allowed third
parties, such as cleaning staff, access to sensitive areas where claimant data were
unsecured. 7 When we discussed our prior finding with AL-DDS management, they told
us they were more concerned with the flow of operations than with the risk of claimants’
folders being compromised. Although AL-DDS told us they did not believe available
space would accommodate storage requirements, they agreed its contracted service
could clean departments with a high-volume of sensitive material, such as the Data
Entry unit, during business hours. However, AL-DDS has continued to allow cleaning
staff access to unsecured sensitive claimant data. We recommend that SSA require
that AL-DDS either clean sensitive areas during business hours or implement a
clean-desk policy to ensure claimant data are properly secured.




5
    POMS, section DI 39566.110.D.
6
    POMS, section DI 39566.010.B.6.e.
7
 General Controls of the Alabama Disability Determination Services Claims Processing System Need
Improvement (A-14-02-22089), issued September 2002.
Page 5 – Paul D. Barnes


EQUIPMENT ROOMS NOT LOCKED

SSA policy requires that DDSs keep utility boxes and closets locked to prevent
           8
tampering. However, during our site visit to the Mobile, Alabama, office, we found the
mechanical and telephone rooms were unsecured, and the telephone room did not
have a lock. After discussing our findings with AL-DDS management, they immediately
locked the mechanical room door and installed a lock on the telephone room door. We
believe AL-DDS adequately addressed our concern. However, AL-DDS should remind
its personnel about securing the equipment rooms to avoid any unnecessary risk. We
recommend AL-DDS monitor the equipment rooms to ensure they remain locked.

ANNUAL SECURITY AWARENESS TRAINING NOT ADEQUATELY DOCUMENTED

SSA policy requires that DDSs conduct annual security awareness training and obtain a
signed statement of understanding from its employees. 9 Although AL-DDS conducted
the required training, it required that employees sign a Form SSA-120, Application for
Access to SSA Systems—a form that was designed for other purposes. We discussed
this finding with AL-DDS management, who stated they will obtain employees’ signed
statements of understanding in accordance with SSA policy. We believe AL-DDS is
adequately addressing our concern.

SECURITY PLAN NOT ADEQUATE

SSA policy requires that DDSs establish and maintain a written Security Plan for each
             10
of its sites. However, AL-DDS’ Security Plan only contained three of eight required
parts, and these parts did not contain all of the required elements. For example, Part A,
Physical Security DDS Description/Profile, did not contain 11

•     the size of office,
•     the situation of office (shared tenancy),
•     a description of existing security in place during non-business hours,
•     a description of computer system and communications equipment,
•     a description of workload, and
•     a DDS organizational chart and list of number and types of DDS personnel.
8
    POMS, section DI 39566.010.B.1.k.
9
    POMS, section DI 39566.120.C.3.
10
  POMS, sections DI 39566.010.B.8, DI 39566.120.B, and DI 39566.120.C. The Security Plan contains
eight parts: Physical Security DDS Description/Profile; DDS Systems Interconnection Access Security
Plan; Systems Security Awareness and Training Plan; Tri-Annual Systems Review/Recertification Plan;
Violation Reports and Resolution Plan; Continuity of Operations Plan; Disaster Recovery Plan; and Risk
Assessment/Exceptions.
11
     POMS, section DI 39566.120.C.1.
Page 6 – Paul D. Barnes


Also, Part F, Continuity of Operations Plan, did not contain a description of procedures
and persons to contact at the Regional Office or the DDS’ workload. 12 Furthermore,
Part G, Disaster Recovery Plan, did not contain a description of local resources
AL-DDS would need if a disaster occurred. 13

AL-DDS management told us their Security Plan omissions were an oversight. AL-DDS
further stated it would revise its Security Plan and include the missing items. We
believe an incomplete Security Plan could negatively impact the DDS’ ability to resume
operations in the event of a disaster or disruption of its workflow. AL-DDS should
ensure its Security Plan meets SSA’s requirements.

CONCLUSION AND RECOMMENDATIONS
AL-DE’s and AL-DDS’ internal controls over the accounting and reporting of
administrative costs for FYs 2005 and 2006 were generally effective to ensure costs
claimed were allowable and funds were properly drawn. However, AL-DDS’ general
security controls and practices did not always adequately protect office facilities and
claimant data, and AL-DDS did not have an adequate Security Plan.

Accordingly, we recommend that SSA instruct AL-DDS to:

1. Reactivate the IDS’ sensors at the end of the business day.
2. Keep the perimeter door locked.
3. Change the IDS code.
4. Install a lock on the guard station door.
5. Keep the guard station locked when it is unattended.
6. Ensure the IDS is tested semiannually.
7. Monitor the recycling process to ensure claimant PII is inaccessible to unauthorized
   personnel.
8. Require that its contracted service clean sensitive areas during business hours. If
   AL-DDS continues cleaning sensitive areas during non-business hours, it should
   ensure that claimant information is properly secured from unauthorized personnel.
9. Monitor equipment rooms at the Mobile, Alabama, office to ensure they remain
   locked.
10. Obtain signed statements of understanding from employees regarding annual
    security awareness training.
11. Revise its Security Plan to meet SSA’s requirements.


12
     POMS, section DI 39566.120.C.6.
13
     POMS, section DI 39566.120.C.7.
Page 7 – Paul D. Barnes


AGENCY COMMENTS AND OIG RESPONSE
SSA agreed with all of our recommendations, except for Recommendation 2. For
Recommendation 2, the Agency agreed with the intent of the recommendation and
instructed the DDS to conduct a risk assessment to determine appropriate corrective
action. We believe the Agency’s response and planned actions adequately address our
concerns. The full text of SSA’s and AL-DDS’ comments are included in
Appendices D and E.

OTHER MATTER

In September 2005, we issued a report on Disability Determination Services’ Use of
Social Security Numbers on Third-Party Correspondence. In this report, we
recommended that SSA:

      Clarify existing policy to define what third parties may be provided a
      claimant’s Social Security Number (SSN) as a part of the DDS’s
      disability determination process. To ensure SSN integrity, we believe
      the SSN should only be disclosed when it is critical to a third party’s
      ability to adequately respond to the DDS’s information request.

SSA agreed with this recommendation and stated:

      A claimant’s SSN should only be disclosed when it is critical to a third
      party’s ability to adequately respond to a DDS’s information request.
      We will review and, to the extent necessary, clarify our existing policy to
      more clearly define which third parties should be provided a claimant’s
      full or partial SSN as part of the DDS evidence collection process.

We asked AL-DDS if it disclosed claimants’ SSNs on documents sent to third parties.
AL-DDS confirmed that it includes claimants’ SSNs on requests for medical evidence of
record, consultative examinations and applicant travel documents and has been doing
so for many years. We believe AL-DDS should take steps to exclude the SSN from
documents it sends to third parties.




                                                Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Background, Scope and Methodology

APPENDIX C – Schedule of Total Costs Reported on Forms SSA-4513—State Agency
             Reports of Obligations for Social Security Administration Disability
             Programs

APPENDIX D – Agency Comments

APPENDIX E – Alabama Disability Determination Service Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                          Appendix A

Acronyms
Act        Social Security Act
AL-DDS     Alabama Disability Determination Service
AL-DE      Alabama Department of Education
C.F.R.     Code of Federal Regulations
DDS        Disability Determination Services
DI         Disability Insurance
FY         Fiscal Year
IDS        Intrusion Detection System
PII        Personally Identifiable Information
POMS       Program Operations Manual System
SSA        Social Security Administration
SSI        Supplemental Security Income
SSN        Social Security Number
Treasury   Department of the Treasury



Form

SSA-4513   State Agency Report of Obligations for SSA Disability
           Programs
                                                                                   Appendix B

Background, Scope and Methodology
BACKGROUND
The Disability Insurance (DI) program, established under Title II of the Social Security
Act (Act), provides benefits to wage earners and their families in the event the wage
earner becomes disabled. The Supplemental Security Income (SSI) program,
established under Title XVI of the Act, provides benefits to financially needy individuals
who are aged, blind, or disabled.

The Social Security Administration (SSA) is responsible for implementing policies for
the development of disability claims under the DI and SSI programs. Disability
determinations under both the DI and SSI programs are performed by disability
determination services (DDS) in each State, Puerto Rico and the District of Columbia in
accordance with Federal regulations. 1 In carrying out its obligation, each DDS is
responsible for determining claimants’ disabilities and ensuring adequate evidence is
available to support its determinations. To assist in making proper disability
determinations, each DDS is authorized to purchase medical examinations, x-rays, and
laboratory tests on a consultative basis to supplement evidence obtained from
claimants’ physicians or other treating sources.

SSA reimburses the DDS for 100 percent of allowable expenditures up to its approved
funding authorization. The DDS withdraws Federal funds through the Department of
the Treasury’s (Treasury) Automated Standard Application for Payments System to pay
                                                                                   2
for program expenditures. Funds drawn down must comply with Federal regulations
and intergovernmental agreements entered into by Treasury and States under the Cash
                                         3
Management Improvement Act of 1990. An advance or reimbursement for costs under
the program must comply with the Office of Management and Budget’s Circular A-87,
Cost Principles for State, Local and Indian Tribal Governments. At the end of each
quarter of the Fiscal Year (FY), each DDS submits a State Agency Report of
Obligations for SSA Disability Programs (Form SSA-4513) to account for program
disbursements and unliquidated obligations.




1
    20 Code of Federal Regulations (C.F.R.) §§ 404.1601 et. seq. and 416.1001 et seq.
2
    31 C.F.R. Part 205.
3
    Public Law 101-453, 104 Stat. 1058, in part amending 31 United States Code §§ 3335, 6501, and 6503.


                                                    B-1
SCOPE
To accomplish our objectives, we:

•   Reviewed applicable Federal laws, regulations and pertinent parts of SSA’s
    Program Operations Manual System (POMS) DI 39500, DDS Fiscal and
    Administrative Management, and other instructions pertaining to administrative costs
    Alabama Disability Determination Service (AL-DDS) incurred and requests for
    Federal funds covered by the Cash Management Improvement Act agreement.

•   Interviewed Alabama Department of Education’s (AL-DE) and AL-DDS’ staff and
    corresponded with SSA Regional Office personnel.

•   Reconciled the electronic disbursement files AL-DE provided us to the
    administrative costs it reported on Forms SSA-4513 for FYs 2005 and 2006 through
    the quarter ended September 30, 2006.

•   Evaluated and tested internal controls over accounting, financial reporting and cash
    management activities.

•   Examined documentation for statistically selected direct cost transactions
    (personnel, medical services, and all other non-personnel costs) AL-DE reported for
    the audit period to determine whether the costs were allowable under Office of
    Management and Budget Circular A-87, Cost Principles for State, Local and Indian
    Tribal Governments, and if appropriate, as defined by POMS.

•   Examined the Indirect Cost Rate Agreements in effect during the audit period and
    evaluated the propriety of AL-DE’s calculation of reported indirect costs.

•   Compared the amount of SSA funds AL-DE drew down to support program
    operations with the disbursements it reported on Forms SSA-4513.

•   Reviewed the State of Alabama Single Audit reports for FYs 2005 and 2006.

•   Conducted a physical inventory of selected (1) equipment items contained on
    AL-DDS’ inventory listings and (2) computer hardware items SSA provided to
    AL-DDS.

•   Conducted limited general control testing—which encompassed reviewing the
    physical access security within AL-DDS.

The electronic data used in our audit were sufficiently reliable to achieve our audit
objectives. We assessed the reliability of the electronic data by reconciling them with
the costs claimed on the Forms SSA-4513. We also conducted detailed audit testing
on selected data elements in the electronic data files.



                                           B-2
We performed our audit at AL-DE in Montgomery, Alabama; AL-DDS in Birmingham
and Mobile, Alabama; and the Office of Audit in Birmingham, Alabama, from March
through October 2007. We conducted this financial audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe the
evidence obtained provides a reasonable basis for our findings and conclusions based
on our audit objectives.

SAMPLING METHODOLOGY
Our sampling methodology encompassed the three areas of direct costs reported on
Forms SSA-4513: (1) personnel, (2) medical, and (3) all other non-personnel costs.
We obtained computerized data from AL-DE for FYs 2005 and 2006 for use in
statistical sampling.

Personnel Costs

We reviewed a random sample of 50 personnel transactions from 1 randomly selected
pay period in FY 2006. Because management is on a different pay schedule from other
DDS employees, we also reviewed the Administrator’s personnel transactions for the
pay period following the one selected for other personnel. In addition, we reviewed all
45 medical consultants’ transactions from 1 randomly selected pay period in FY 2006.
We tested payroll records to ensure AL-DE correctly paid these employees and
adequately supported the payments.

Medical Costs

We reviewed 100 medical costs items (50 items from each FY) using a stratified
random sample. We distributed the sample items between medical evidence of records
and consultative examinations based on the proportional distribution of the total medical
costs for each year. We determined whether sampled costs were properly reimbursed.

All Other Non-Personnel Costs

We stratified all other non-personnel costs for each year into 10 categories:
(1) Occupancy, (2) Contracted Costs, (3) Electronic Data Processing Maintenance,
(4) Equipment Purchases, (5) Equipment Rental, (6) Communications, (7) Applicant
Travel, (8) DDS Travel, (9) Supplies, and (10) Miscellaneous. For each year under
review, we randomly selected 1 month’s Occupancy costs and reviewed all transactions
for each month. Next, we randomly selected 50 transactions to review for each year
from the 9 remaining cost categories (100 sample items total). The number of sample
items selected from each of the nine cost categories for each year was based on the
proportional distribution of the costs included in each cost category for that year.




                                          B-3
                                                         Appendix C

Schedule of Total Costs Reported on
Forms SSA-4513—State Agency Reports of
Obligations for Social Security Administration
Disability Programs

             Alabama Disability Determination Service

              FISCAL YEARS (FY) 2005 and 2006 COMBINED
                                    UNLIQUIDATED            TOTAL
REPORTING ITEMS   DISBURSEMENTS      OBLIGATIONS         OBLIGATIONS
Personnel           $40,642,058     $1,629,819           $42,271,877
Medical              20,819,723      2,007,402            22,827,125
Indirect              4,588,574        298,144             4,886,718
All Other             7,031,353        300,124             7,331,477
TOTAL               $73,081,708     $4,235,489           $77,317,197

                              FY 2005
                                    UNLIQUIDATED             TOTAL
REPORTING ITEMS   DISBURSEMENTS     OBLIGATIONS          OBLIGATIONS
Personnel           $20,824,017            0             $20,824,017
Medical              11,868,623            0              11,868,623
Indirect              2,665,694            0               2,665,694
All Other             3,908,547            0               3,908,547
TOTAL               $39,266,881            0             $39,266,881
                              FY 2006
                                    UNLIQUIDATED             TOTAL
REPORTING ITEMS   DISBURSEMENTS      OBLIGATIONS         OBLIGATIONS
Personnel           $19,818,041     $1,629,819           $21,447,860
Medical               8,951,100      2,007,402            10,958,502
Indirect              1,922,880        298,144             2,221,024
All Other             3,122,806        300,124             3,422,930
TOTAL               $33,814,827     $4,235,489           $38,050,316
                  Appendix D

Agency Comments
                                  SOCIAL SECURITY

MEMORANDUM

Date:      February 21, 2008

To:        Patrick P. O’Carroll, Jr
           Inspector General

From:      Regional Commissioner
           Atlanta

Subject:   REPLY-Administrative Costs Claimed by the Alabama Disability Determination
           Service (A-08-07-17151)


Thank you for the opportunity to comment on the OIG draft report as outlined in the subject.
Our comments are attached along with the response received from the Alabama Disability
Determination Service.

We agree with your findings and present our views in the area that impacts the DDS as it relates
to Personal Identifiable Information (PII) in the electronic environment.

If you wish to discuss our response, please call me or have your staff contact Joann Strange,
Disability Program Administrator, at 404-562-1399.


                                                           /s/
                                                     Paul D. Barnes

Attachment

Cc:
Ruby Burrell, Associate Commissioner for Office of Disability Determinations
Jeffrey Hild, Associate Commissioner for Office of Financial Policy and Operations
Amy Roberts, Atlanta Region Assistant Regional Commissioner for Management and Operations
    Support
Candice Skurnik, Director, Audit Management and Liaison Staff
Tommy Warren, Director, Alabama Disability Determination Service



                                               D-1
                        OIG Audit (A-08-07-17151)
             Administrative Costs & General Security Controls
             Social Security Administration Written Comments

Thank you for the opportunity to comment on the formal draft report of the
Alabama Disability Service (DDS) Administrative Costs and General Security
Controls for Fiscal Years 2005 and 2006.

SSA acknowledges that there were no adverse findings or corrective actions
necessary regarding fiscal controls. Our comments below address the areas
regarding general security controls where corrective action was recommended.


Finding – The intrusion detection system (IDS) sensors were not reactivated
timely and the perimeter door was not always locked.

Recommendation 1 - Reactivate the IDS sensors at the end of the business
day.

We agree and the AL DDS has implemented corrective action as recommended.

Recommendation 2 – Keep the perimeter door locked.

We agree with the intent of the recommendation. However, given that the
perimeter door referenced leads to the employee smoking area which is
frequented by employees throughout the day, we have instructed the DDS to
conduct a risk assessment to determine appropriate corrective action.

Finding – The Intrusion detection system was not adequately protected.

Recommendation 3 - Change the IDS code.

We agree. The IDS code was changed on February 7, 2008.

Recommendation 4 – Install a lock on the guard station.

We agree. The guard station lock was installed on January 24, 2008 as
recommended.

Recommendation 5 – Keep the guard station locked when unattended.

We agree. With the implementation of recommendation 4, the AL DDS will
ensure that the guard station is locked when unattended.




                                      D-2
                         OIG Audit (A-08-07-17151)
              Administrative Costs & General Security Controls
              Social Security Administration Written Comments

Finding – The intrusion detection system was not tested annually.

Recommendation 6– Ensure that the IDS is tested semiannually.

We agree. The AL DDS FY 2008 IDS vendor’s maintenance agreement was
revised to provide for semi-annual testing. First IDS testing was done on
December 7, 2007 and documented.

Finding – Recycling bins were not adequately secured.

Recommendation 7 – Monitor the recycling process to ensure claimant PII is
inaccessible to unauthorized personnel.

We agree. The DDS changed its recycling contractor and implemented
monitoring procedures to ensure that PII will not be placed outdoors until the
recycling contractor arrives.

Finding – Claimant records are not adequately secured.

Recommendation 8 – Require that its contracted service clean sensitive areas
during business hours. If AL-DDS continues cleaning sensitive areas during non-
business hours, it should ensure that claimant information is properly secured
from unauthorized personnel.

We agree. The AL DDS instructed its contract cleaning service to clean sensitive
areas during normal business hours.

Finding – Mobile equipment rooms were not locked.

Recommendation 9– Monitor equipment rooms in the Mobile, Alabama office to
ensure they remain locked.

We agree. Appropriate personnel will ensure that these rooms are always
secured and locked to prevent any unnecessary risks.

Finding – Annual security awareness training was not adequately documented.

Recommendation 10 – Obtain signed statements of understanding from
employees regarding annual security awareness training.

We agree. The DDS designed a form that now requires an employee signature
when the annual security awareness training takes place.




                                       D-3
                        OIG Audit (A-08-07-17151)
             Administrative Costs & General Security Controls
             Social Security Administration Written Comments

Finding – The DDS Security Plan was not adequate.

Recommendation 11 – Revise the Security Plan to meet SSA’s requirements.

We agree. SSA is working with the DDS to ensure that all eight parts of the
Security Plan are complete and up to date in accordance with the POMS. The
DDS has targeted all of their Security Plan revisions for February 29, 2008.

OTHER MATTER

Finding – We asked AL-DDS if it disclosed claimant’s SSNs on documents sent
to third parties. AL-DDS confirmed that it includes claimant’s SSNs on requests
for medical evidence of record (MER), consultative examinations (CE) and
applicant travel documents and has been doing so for many years.

Recommendation – The AL-DDS should take steps to exclude the SSN from
documents that it sends to third parties.

SSA agrees that there is no need for DDSs to provide the claimant’s SSN to third
parties (e.g., employers, neighbors, relatives, day care providers, etc.) who are
not MER, CE, or school sources. The AL-DDS also is in full agreement and does
not include SSNs to these third parties.


However, the AL-DDS needs to provide a claimant’s full SSN to MER, CE, and
school providers to enable them to transmit evidence using Electronic Records of
Evidence (ERE) Services. Also, legacy system programming, scanning
procedures, and utilization of staff resources in the DDS would be adversely
affected in obtaining the specific identified information if SSNs were not used.
The applicant travel form is only provided to the claimant.



If your staff has any questions, please have them contact Joann Strange at
(404)-562-1399.




                                       D-4
                                    Appendix E

Alabama Disability Determination Service
Comments
                       Alabama Disability Determination Service
                          Response to Request for Comments

                                     OIG Audit
                                  (A-08-07-17151)

 The Office of the Inspector General conducted an audit of the Administrative Costs
claimed by the Alabama Disability Service (DDS) for Fiscal Years 2005 and 2006. In the
OIG audit report there were a number of areas regarding general security controls where
corrective action was recommended. There were no adverse findings or corrective actions
recommended regarding fiscal controls.

Following are the findings where OIG recommended corrective action, along with the
DDS response to those recommendations. Those findings and corrective actions are as
follows:

Finding – The intrusion detection system (IDS) sensors were not reactivated timely and
the perimeter door was not always locked. Recommendation- Reactivate the IDS sensors
at the end of the business day. Recommendation – Keep the perimeter door locked.

Response – The DDS will reactivate the sensors at the end of the business day, as
recommended in the report. Additionally, the perimeter door was put on its own sensor
zone on February 7, 2008. The door in question leads to the employee smoking area.
Employees exit to this area at various times during the workday for breaks and during
lunch. This smoking area is enclosed by an eight foot fence, viewable by DDS security
cameras and is frequently occupied by DDS employees. For these reasons, the DDS
considers the possibility of an unauthorized entry during working hours from this area to
be a very low risk item and will complete a risk assessment form regarding this issue.

Finding – The Intrusion detection system was not adequately protected.
Recommendation - Change the IDS code. Recommendation – Install a lock on the
guard station. Recommendation – Keep the guard station locked when it is unattended.

Response- The IDS code was changed on February 7, 2008 as recommended. Although
the security guards had been instructed prior to the audit that codes should not be
displayed, they have been reminded that this should not be done and to do so violates
security procedures. A lock was installed on the guard station, as recommended, on
January 24, 2008. The guard station will be locked when it is unattended.

Finding – The intrusion detection system was not tested annually. Recommendation –
Ensure that the IDS is tested semiannually.

Response – The maintenance agreement with the IDS vendor was amended starting with
FY 2008 to provide for semi-annual testing of the IDS. The IDS was tested the first time
in FY 2008 on December 7, 2007.




                                           E-1
                        Alabama Disability Determination Service
                           Response to Request for Comments
Finding – Recycling bins were not adequately secured. Recommendation – Monitor the
recycling process to ensure claimant PII is inaccessible to unauthorized personnel.

Response – Starting with FY 2008, the DDS changed vendors for its recycling program.
The new recycle containers are lockable and containers with PII will no longer be put
outside before the recycling contractor’s arrival. Employees have been instructed to
check bins after the contractor has completed its shredding to ensure no outside bins
contain PII. The DDS will continue to monitor the recycling process as recommended.

Finding – Claimant records are not adequately secured. Recommendation – Require the
contracted service clean sensitive areas during business hours.

Response - The DDS has instructed its contract service to clean sensitive areas during
business hours. It should be noted that this issue should resolve itself over time. The DDS
is already processing its initial and OHA workloads in an electronic format rather than
paper. The DDS is supposed to convert to an electronic format for CDR cases during this
fiscal year. Pipeline paper cases should be eliminated in a relatively short period of
time following this conversion. Electronic records are protected from unauthorized
access by SSA systems security.

Finding – Mobile equipment rooms were not locked. Recommendation – Monitor
equipment rooms in the Mobile, Alabama office to ensure they remain locked.

Response – The equipment rooms in the Mobile office will be monitored, as
recommended, to ensure that they remain locked.

Finding – Annual security awareness training was not adequately documented.
Recommendation – Obtain signed statements of understanding from employees
regarding annual security awareness training.

Response - Although the DDS had documentation that the security awareness training
was conducted, it only obtained employee signatures on a new Form SSA 120 at the time
of the security awareness training. The DDS has designed an additional form to be
signed by employees at their annual security awareness training that will be used for all
annual security awareness training in the future. Signature of the new/additional forms
will start at the time of the next annual security awareness training.




                                            E-2
                       Alabama Disability Determination Service
                          Response to Request for Comments
Finding – The DDS Security Plan was not adequate. Recommendation – Revise the
Security Plan to meet SSA’s requirements.

Response – The DDS has already added the recommended items identified in the audit to
its Security Plan. However, some reformatting of the Security Plan still needs to be done.
This should be completed no later than close of business on February 29, 2008. A copy of
the reformatted Security Plan will be provided to the RO as soon as the reformatting has
been completed.

OTHER MATTER

Finding – The DDS utilizes the claimant’s SSN on documents sent to medical providers.
Recommendation – The AL-DDS should take steps to exclude the SSN from documents
that it sends to third parties.

Response – The DDS does not use a claimant’s SSN on documents going to third parties
such as neighbors or friends etc. for information regarding claimants. The SSN is only
used in documents being sent to providers of medical information. Applicant travel forms
are only sent to claimants, not third parties, and the SSN is required for payment
purposes. A large segment of the medical community relies on an SSN to
identify/distinguish the claimant from other patients. Their computer software and
business practices are structured to use the SSN as an identifier. The use of the SSN is a
critical factor for obtaining information from medical vendors in order to collect the
needed evidence for case processing. As long as an Form SSA 827 (Authorization To
Disclose Information To The Social Security Administration) containing the claimant
SSN accompanies requests for medical information from treating sources and
consultative examination vendors, there is no value in removing the SSN from the request
for medical information. It should be noted that the SSN is also used as the identifier for
Medicare, Medicaid and military Tri-Care programs.




                                           E-3
                                                                      Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly A. Byrd, Director, (205) 801-1650

   Theresa Roberts, Audit Manager, (205) 801-1619

Acknowledgments

In addition to those named above:

   Cliff McMillan, Senior Auditor

   Janet Matlock, Senior Auditor

   Charles Lober, Information Technology Specialist

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-08-07-17151.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure program
objectives are achieved effectively and efficiently. Financial audits assess whether SSA’s
financial statements fairly present SSA’s financial position, results of operations, and cash flow.
Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and
operations. OA also conducts short-term management and program evaluations and projects on
issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
